                   U.S. DEPARTMENT OF THE INTERIOR 
                  OFFICE OF INSPECTOR GENERAL 

          SECURITY IMPROVEMENTS AT GOVERNOR OF THE 
               VIRGIN ISLANDS PRIVATE RESIDENCE 




Report No. VI-IS-VIS-0004-2009                        January 2010
                    United States Department of the Interior
                                OFFICE OF INSPECTOR GENERAL
                                     Washington, DC 20240




                                                                                 JAN 1 9 2010

The Honorable John P. deJongh, Jr.
Governor of the Virgin Islands
No. 21 Kongens Gade
St. Thomas, VI 00802

Re:   Final Inspection Report Security Improvements at the Governor 's Private Residence
      (Report No. VI-IS-VIS-0004-2009)

Dear Governor deJ ongh:

        This letter transmits the results of the subject inspection. The report addresses only
whether public funds were properly expended for security improvements that were begun in June
2007 at your private residence. We do not address security entitlement per se and recognize that
security is a necessity for any sitting Governor. In the past, sitting Virgin Islands governors have
had some level of security at their private residences - wherever located.

        We found that the funds used for the purpose of providing security at your private
residence were set aside for road repairs in the Virgin Islands by the Legislative Branch of
Government. In using those funds , the Executive Branch of Government improperly diverted
roughly half-a-million dollars of specifically earmarked public funds and usurped the authority
of the Legislative Branch of Government. Under Virgin Islands law, only the Legislature is
authorized to determine how public funds should be spent.

        We provide four recommendations that, if implemented, should resolve the current
situation and prevent improper use of funds in the future. Please provide a response to this report
by February 16, 2010 to our Caribbean Field Office, Ron deLugo Federal Building - Room
207, St. Thomas, VI 00802. Your response should identify plans to address the
recommendations cited in this report.

       If you have any questions concerning this report, you may contact me at (202) 208-5745
or Mr. Hannibal M. Ware, Assistant Regional Manager, at (340) 774-8300.




                                              Mary L.
                                              Acting Inspector General
cc:   Louis Hill, President, Virgin Islands Legislature
      Nikolao Pula, Acting Deputy Assistant Secretary for Insular Affairs
 WHY WE PERFORMED THIS INSPECTION

During the summer of 2009, we received requests to review the funding of security
improvements begun in 2007 at the Virgin Islands Governor’s private residence. A Virgin
Islands senator and United States enforcement agencies had made a number of allegations that
public funds, including federal funds, were improperly used to make the improvements. In
response to these requests, we performed an inspection of the use of public funds to pay for
the improvements at issue.

 OVERVIEW

The Revised Organic Act of 1954 established Government House on St. Thomas, Virgin
Islands, as the official residence of governors. Government House is currently used for
offices, however, and is not suitable for residential living. In the past, governors have resided
at Estate Catherineberg, a residence provided by the West Indian Company, although no
requirement exists that governors do so.

John P. deJongh, Jr., was elected Governor of the Virgin Islands in November 2006. Upon
taking office in January 2007, Governor deJongh decided to continue living at his private
residence. As a result of the Governor’s decision, the Department of Public Works (Public
Works) asked the Virgin Islands Attorney General’s Office (AGO) to provide a legal opinion
on whether public funds could be used for security-related improvements at the Governor’s
private residence. In response, the AGO rendered a legal opinion that the Government could
incur the cost and that public funds could be used for the improvements.

In April 2007, Public Works informed the Virgin Islands Public Finance Authority that $1.3
million, which the Legislature of the Virgin Islands intended for territorial road projects, could
also be used for other projects. Those other projects included the security-related
improvements at the Governor’s residence. The Public Finance Authority then notified the
Department of Property and Procurement (Property and Procurement) that funds were
available and that the procurement process could begin (see Appendix 2).


 WHAT WE FOUND

The United States Virgin Islands democratic system distributes power among three branches
of government, the Executive, Legislative, and Judicial Branches. This separation of power
results in a system of checks and balances designed to ensure accountability and transparency
and to minimize the potential for abuse of power.

We found that the Executive Branch ignored the rules of checks and balances when it
circumvented the Legislative Branch by using a legal opinion to justify spending almost half-
a-million dollars of legislatively obligated public funds for security improvements at the


                                                1
Governor’s private residence (Appendix 3). Moreover, these funds were spent without the
benefit of a formal security vulnerability assessment to determine the level of security the
Governor would require or the most cost effective way of providing that security.



Legal Opinion Excluded Legislative Authority


In response to the Public Works request regarding use of public funds, the AGO prepared a
legal opinion based on five cases. The Acting Attorney General concludes in that opinion that
“an expenditure of public funds is permissible, even if a private individual derived a special
benefit, as long as a public purpose is served and that public purpose is the primary reason for
the expenditure.” Armed with this legal opinion, the Executive Branch initiated the process
for funding and completing the security improvements at the Governor’s private residence.

When we reviewed the five cited cases, we found a common thread in three of the five to be
the fact that expenditure of public funds must be legislated. In fact, one of the cited cases
concludes, “What is for the public good or what are public purposes for which appropriations
may be made are questions which the legislature must in the first instance decide.” According
to Virgin Islands law, the authority to use public funds for any purpose, including improving
security at the Governor’s private residence, could only be obtained through legislation, not
by a legal opinion from the AGO. Nevertheless, the AGO opinion remains silent regarding
the requirements for legislative approval of public funds expenditures and for determination
of whether public purpose is the primary reason for any given expenditure.




Public Funds Used Improperly

In 1998, the Virgin Islands Government received surplus bond funds from the Public Finance
Authority that the Legislature had earmarked for public projects. In August 2001, the Virgin
Islands Legislature approved Act No. 6427, appropriating $1.3 million of those funds for the
Nadir Bridge Flood Control Project in St. Thomas. In April 2007, the Legislature passed Act
No. 6917, reprogramming the $1.3 million for the specific purpose of engineering design,
construction, repair, or resurfacing of roads.

The intention of the Legislature regarding Act No. 6917 was apparent during the legislative
process, as it is now. During discussion, six senators mentioned that the funds were intended
for the purpose of Virgin Islands road improvements. One senator specifically stated, “We
have in this bill an appropriation of . . . one point three million dollars . . . to address road
repairs in the territory, but more specifically on the island of St. Croix.” Another senator
noted that roads were in “terrible condition” on St. Croix. Clearly, no part of the $1.3 million
was to be used for security improvements at the Governor’s private residence — or for any
other purpose.

                                                2
 Despite the Legislature’s intent, the former acting
                                                         Figure 1. PROJECTS APPROVED
Commissioner of Public Works incorrectly notified
                                                         BY PUBLIC WORKS APRIL 2007
the Public Finance Authority by letter dated April
                                                                    LETTER
25, 2007, that the reprogrammed funds could be
used for other than road projects, to include            Leonardo Trotman Dr.
security booth and road improvements at the              Security Booth & Road Improvements
Governor’s residence (see Figure 1). Referencing          – Governor’s Residence
the letter from Public Works, the Public Finance
                                                         Cemetery Construction &
Authority notified Property and Procurement that          Improvements
all procurement documents needed to be in place
                                                         Route 82 Drainage Improvements
and forwarded to the Public Finance Authority
before disbursement of the funds could occur.            Planning & Design for Leonardo
This notice triggered expenditure of funds for the        Trotman Dr.
security improvements at the Governor’s private          Plot #3 Estate Princess Drainage
residence.                                                Improvement


After receiving the “go-ahead” from the Public Finance Authority, Property and Procurement
awarded roughly $490,000 in contracts related to security improvements at the Governor’s
private residence (See Table 1). These contracts were issued to erect a permanent, concrete,
stone faced, security guard house; construct a new driveway and parking; and install
aluminum security fencing. Surveillance equipment was also installed as part of the
improvements.

According to Virgin Islands law, no officer or employee of the Government can enter into a
valid contract before an appropriation is made for that specific purpose. Since the
appropriated funds should never have been used to finance security improvements at the
Governor’s private residence, all contracts and agreements issued for that purpose are invalid.
The Virgin Islands Code contains definitive penalties for Government officers or employees
who violate the law. It specifically prohibits the spending of funds for reasons other than
intended in a legislative appropriation and specifies penalties for violation, including fines and
imprisonment.




                                                3
Table 1. TOTAL COST OF SECURITY IMPROVEMENTS
      Project           Contractor     Contract Cost                         Change          Total Costs
                                                                              Orders
Guard House        WMK Mechanical                          $117,266.80      $20,435.00         $137,701.80
                   Group
Security Fencing   WMK Mechanical                           $98,829.00      $23,339.75         $122,168.75
                   Group
Security Fencing – WMK Mechanical                                                              *$25,271.70
Additional Work    Group
Driveway&          Betteroads Asphalt                      $156,160.00                         $156,160.00
Parking            Corp.
Security System    Alert #1 International                   $48,698.00                          $48,698.00


Total                                                                                          $490,000.25
* $25,271.70 has been obligated for additional work done on the security fence that will bring the total cost to
$490,000.25. A funding source has not yet been identified.

By expending the funds for security improvements, the Executive Branch improperly depleted
funds earmarked for much needed road repairs in the Virgin Islands. Further, the Executive
Branch’s actions usurped the Legislature’s authority to determine how to spend public funds.



Security Vulnerability Not Documented

Personal security best practices require the conduct of a vulnerability assessment to determine
necessary security requirements. Such an assessment should have been the first step in
establishing the Governor’s personal security program and should have:

     been tailored to the needs of the Governor based on factors such as workplace,
      residence, family, and domestic travel/and or international travel requirements;

     evaluated existing or perceived threat conditions and existing physical security
      measures and procedures; and

     provided logical recommendations, if needed, for cost effective security
      improvements.

None of these requirements was met.

The Executive Branch expended public funds on permanent physical improvements at the
Governor’s private residence without obtaining a security vulnerability assessment. The only
semblance of an assessment consisted of undated, handwritten notes prepared by the
Governor’s Director of Security. These notes described the physical layout of the property
only and did not address security vulnerabilities. While the Governor is entitled to some level

                                                       4
of security, the expenditure of half-a-million dollars in public funds on permanent security
improvements cannot be justifiable without a proper assessment of security vulnerabilities.




Conclusion

Whether the current Governor is entitled to security at his private residence is not germane to
our inspection. We recognize that security is a necessity for any sitting Governor. In fact,
past Virgin Islands governors have had some level of security at their private residences
regardless of where they officially resided while in office. The Executive Branch of
Government, however, cannot independently determine the purpose for which public funds
are used. Only the Legislature has the authority to appropriate public funds to pay for security
improvements for any governor. Therefore, all public funds diverted from Act No. 6917 for
the purpose of providing security at the Governor’s private residence were improperly
expended. Further, any determination of the level of security necessary to protect a governor
should be preceded by a formal vulnerability assessment.




Recommendations


We recommend that the Executive Branch of the Virgin Islands:

1. Determine whether Government House, as designated by the Revised Organic Act of
   1954, can be made suitable to serve the residential needs of the Governor of the Virgin
   Islands. If so, secure the funds necessary to convert Government House from office to
   residential use. If not, pursue legislation that would identify alternative accommodations.

2. Adhere to existing laws regarding the use of public funds, which can only be used for
   purposes authorized by the Legislative Branch.

3. Ensure that funds redirected to the Department of Public Works by Act No. 6917 and
   improperly expended for security improvements at the Governor’s private residence be
   returned and used as intended.

4. Ensure that an appropriate security vulnerability assessment is made in the event that any
   appropriation for security improvements at a governor’s private residence is considered.




                                               5
                                                                                 Appendix 1


  INSPECTION SCOPE AND METHODOLOGY

The objective of our inspection was to determine solely whether public funds were properly
expended for the security enhancements made at the Governor’s private residence.

We performed our work from August to November 2009 in accordance with the “Quality
Standards for Inspections” issued by the President’s Council on Integrity and Efficiency. To
accomplish our objective, we reviewed records and interviewed officials of the Departments
of Justice, Public Works, and Property and Procurement and of the Public Finance Authority,
the West Indian Company, and Government House. We also interviewed the Virgin Islands
Governor and the former Senate President. In addition, we performed site visits of
Government House, Estate Catherineberg, and the Governor’s private residence, where we
viewed the security improvements at issue.




                                              6
                                           Appendix 2

TIMELINE OF SECURITY IMPROVEMENTS AT GOVERNOR’S
               PRIVATE RESIDENCE




                       7
                                                      Appendix 3


MONETARY IMPACT

                       QUESTIONED COSTS
CONTRACTS FUNDED BY ACT NO. 6917 FOR           
                                          $490,000 
SECURITY IMPROVEMENTS AT GOVERNOR’S 
PRIVATE RESIDENCE  




                                   8
